NO. ________

IN THE

Supreme Court of the United States

SALVADOR DIAZ,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

APPENDIX

Robin C. Smith, Esq.
Leean Othman, Esq.
Law Office of Robin C. Smith, Esq., P.C.

802 B Street
San Rafael, California 94901
(415) 726-8000
rcs@robinsmithesq.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

TABLE OF CONTENTS

Page

Opinion of the United States Court of Appeals for the Second Circuit,
filed July 22, 2020 ............................................................................................ A1
Order on Rehearing, filed October 1, 2020 ..................................................... A11
Statutory and Constitutional Provisions ........................................................ A12

i

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page1 of 10

19-1895-cr
United States v. Salvador Diaz

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2019
(Argued: June 24, 2020

Decided: July 22,2020)

Docket No. 19-1895-cr

UNITED STATES OF AMERICA,
Appellee,
v.
SALVADOR DIAZ,
Defendant-Appellant.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

Before:
CALABRESI, CHIN, and CARNEY, Circuit Judges.

Appeal from a judgment of the United States District Court for the
Southern District of New York (Caproni, J.) convicting defendant-appellant of

A1

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page2 of 10

failing to register as a sex offender under the Sex Offender Registration and
Notification Act in violation of 18 U.S.C. § 2250(a). Defendant-appellant
contends that the district court erred when it precluded him from collaterally
attacking his predicate conviction, rejected his argument that the statute is
unconstitutional, and denied his motion to dismiss for improper venue.
AFFIRMED.
Judge CALABRESI CONCURS in a separate opinion.

DANIEL NESSIM, Assistant United States Attorney
(Elinor Tarlow, David Abramowicz, Assistant
United States Attorneys, on the brief), for Audrey
Strauss, United States Attorney for the Southern
District of New York, New York, New York, for
Appellee.
ROBIN C. SMITH (Leean Othman, on the brief), Law Office
of Robin C. Smith, Esq., P.C., New York, New
York, for Defendant-Appellant.

PER CURIAM:
Defendant-appellant Salvador Diaz appeals from a judgment of the
district court entered June 26, 2019, following a jury trial, convicting him of
failing to register as a sex offender under the Sex Offender Registration and
2

A2

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page3 of 10

Notification Act ("SORNA"), 18 U.S.C. § 2250(a). He was sentenced principally to
five years' probation, with the first three months to be served in home
confinement. On appeal, Diaz challenges his conviction on the grounds that the
district court erred when it precluded him from collaterally attacking his
predicate conviction, rejected his argument that SORNA is unconstitutional, and
denied his motion to dismiss for improper venue. For the reasons set forth
below, we affirm the judgment of conviction.
BACKGROUND
On December 1, 2000, Diaz, then a chief petty officer in the United
States Navy, was convicted by court-martial of three counts of rape and two
counts of indecent acts, in violation of Articles 120 and 134 of the Uniform Code
of Military Justice. He was sentenced to nine years' imprisonment and a
dishonorable discharge. Diaz has since pursued several challenges to his
convictions, all unsuccessfully. See, e.g., United States v. Diaz, 61 M.J. 594 (N-M.
Ct. Crim. App. 2005) (appeal to the Navy-Marine Corps Court of Criminal
Appeals); United States v. Diaz, 64 M.J. 180 (C.A.A.F. 2006) (appeal to the United
States Court of Appeals for the Armed Forces); Diaz v. United States, 549 U.S. 1356

3

A3

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page4 of 10

(2007) (petition for writ of certiorari to United States Supreme Court); Diaz v.
Inch, No. 06-3306, 2007 WL 9754574 (D. Kan. Sept. 28, 2007) (habeas petition).
Following his release from prison, Diaz registered as a sex offender
in New York. Between 2014 and 2017, Diaz moved from New York to New
Jersey and Virginia, but did not register in the latter two states. On April 12,
2017, the Government indicted Diaz for violating § 2250(a)(2)(A) -- the "Sex
Offense Clause" -- because he "changed his residence without updating his
registered address in New York." App'x at 27. On March 2, 2018, Diaz,
proceeding pro se, moved to dismiss the indictment, arguing that his predicate
sex offender conviction was obtained in violation of the Constitution and that
SORNA was unconstitutional. The district court denied the motion.
On November 19, 2018, after the district court ordered the
Government to address the effect of Nichols v. United States, 136 S. Ct. 1113 (2016),
on Diaz's indictment, the Government filed a superseding indictment, charging
Diaz with traveling in interstate commerce and failing to update his registration
in the jurisdictions in which he resided after departing New York, in violation of
§ 2250(a)(2)(B) -- the "Interstate Travel Clause." The district court set a pretrial
motion deadline for December 21, 2018. On February 25, 2019, Diaz again

4

A4

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page5 of 10

moved to dismiss for, inter alia, improper venue. The district court denied the
motion as untimely, without good cause to excuse waiver, and meritless.
Diaz was convicted following a jury trial and sentenced principally
to five years' probation with the first three months to be served in home
confinement. This appeal followed.
DISCUSSION
I.

Collateral Challenges to Predicate Convictions under SORNA
"We review questions of statutory interpretation de novo." United

States v. Ng Lap Seng, 934 F.3d 110, 122 (2d Cir. 2019). In interpreting a statute,
this Court gives "the statutory terms their ordinary or natural meaning." United
States v. Lockhart, 749 F.3d 148, 152 (2d Cir. 2014) (internal quotation marks
omitted).
The Supreme Court has routinely interpreted statutes that depend
on a prior conviction as precluding defendants from collaterally challenging the
predicate conviction in a subsequent proceeding. See Custis v. United States, 511
U.S. 485, 497 (1994) (holding that defendant may not collaterally attack prior
conviction used to enhance sentence under the Armed Career Criminal Act
because the statute does not explicitly permit such challenges); Lewis v. United

5

A5

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page6 of 10

States, 445 U.S. 55, 67 (1980) (finding that felon-in-possession statute did not
permit defendant to contest felony conviction in subsequent firearms prosecution
because the statute "focus[es] not on reliability, but on the mere fact of
conviction" as an element of the firearms offense); cf. United States v. MendozaLopez, 481 U.S. 828, 840-41 (1987) (permitting collateral attack on predicate
conviction despite the Immigration and Nationality Act's silence because judicial
review of that conviction is otherwise unavailable). At least one circuit has
addressed and rejected the contention that SORNA permits collateral challenges
to sex offender convictions in its proceedings. See United States v. Delgado, 592 F.
App'x 602, 603 (9th Cir. 2015) (mem. disp.).
We agree that SORNA does not permit defendants to collaterally
challenge predicate sex offender convictions. SORNA is similar in structure to
the statutes that the Supreme Court has held do not authorize collateral attacks
of predicate convictions: SORNA requires the fact of a sex offender conviction as
an element of the registration offense, see Lewis, 445 U.S. at 67, and lacks explicit
terms authorizing a defendant to challenge the predicate conviction, see Custis,
511 U.S. at 491-92. 1 Moreover, Diaz's argument that SORNA permits collateral

Section 2250(a) provides: "Whoever-- (1) is required to register under [SORNA];
(2)(A) is a sex offender . . . by reason of a conviction under Federal law (including the
1

6

A6

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page7 of 10

attack through 34 U.S.C. § 20911(5)(B) (the "Foreign Conviction Exception") is
unpersuasive. 2 The Foreign Conviction Exception is by its terms limited to
foreign convictions, and Congress did not intend to extend it to domestic
convictions. See id. at 492 (applying expressio unius maxim that maintains "where
Congress includes particular language in one section of a statute but omits it in
another," we presume Congress acted intentionally (brackets omitted)).
Finally, Diaz already received judicial review of his sex offender
conviction. Permitting him to attack his prior conviction would provide him an
opportunity for judicial review not available to those who abide by SORNA's
requirements. See id. at 497 (emphasizing the interest in not undermining a prior
judgment "in a proceeding that ha[s] an independent purpose other than to
overturn the prior judgmen[t]") (internal quotation marks omitted).

Uniform Code of Military Justice), the law of the District of Columbia, Indian tribal law,
or the law of any territory or possession of the United States; or (B) travels in interstate
or foreign commerce, or enters or leaves, or resides in, Indian country; and (3)
knowingly fails to register or update a registration as required by [SORNA]; shall be
fined under this title or imprisoned not more than 10 years, or both." 18 U.S.C.
§ 2250(a).
The Foreign Conviction Exception provides that "[a] foreign conviction is not a
sex offense . . . if it was not obtained with sufficient safeguards for fundamental fairness
and due process for the accused," 34 U.S.C. § 20911(5)(B), and mandates that the
Attorney General establish "guidelines" to determine whether these convictions qualify
as sex offenses, see id. § 20912(b).
2

7

A7

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page8 of 10

Accordingly, the district court correctly held that a defendant in a
SORNA prosecution may not collaterally challenge his underlying sex offender
conviction.
II.

SORNA's Constitutionality under the Eighth and Fifth Amendments
We review the district court's interpretation of the constitutionality

of a federal statute de novo. See United States v. Henry, 888 F.3d 589, 602 (2d Cir.
2018), cert. denied, 139 S. Ct. 2615 (2019).
Diaz argues that SORNA violates the Eighth and Fifth Amendment's
prohibitions on cruel and unusual punishments and double jeopardy because the
statute imposes a "second punishment" on the same criminal conduct.
Appellant's Br. at 49. 3 He contends that the registration and notification
provisions of sex offender registration statutes are punitive in nature because
they result in "lifetime deprivations" of housing and employment and "public
shaming." Appellant's Br. at 44, 45. He questions the efficacy of sex offender
statutes, asserting that they are "an ineffective solution to tackling sex crimes."
Appellant's Br. at 47.

The Eighth Amendment mandates against the infliction of "cruel and unusual
punishments," U.S. Const. amend. VIII, while the Fifth Amendment prohibits subjecting
a person "to be twice put in jeopardy of life or limb" for one criminal act, U.S. Const.
amend. V.
3

8

A8

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page9 of 10

As Diaz acknowledges, however, we held in Doe v. Pataki that the
mandatory registration and notification requirements of New York State's Sex
Offender Registration Act, which are analogous to SORNA's requirements, are
nonpunitive in purpose and effect. See 120 F.3d 1263, 1285 (2d Cir. 1997), as
amended on denial of reh'g (Sept. 25, 1997) (rejecting that the New York statute
violates the Fifth Amendment's Ex Post Facto Clause). Moreover, the Supreme
Court reached the same conclusion in its review of an Ex Post Facto challenge to
Alaska's Sex Offender Registration Act. See Smith v. Doe, 538 U.S. 84, 105 (2003).
Our precedent precludes the argument that sex offender registration and
notification requirements are punitive, see Pataki, 120 F.3d at 1285, and the
Supreme Court's similar conclusion in Smith v. Doe forecloses this Court's ability
to revisit the Pataki decision, 538 U.S. at 105. Accordingly, the district court
correctly concluded that SORNA does not violate the Fifth or Eighth
Amendments. 4

Diaz further argues that the district court erred when it denied as untimely his
motion to dismiss for improper venue. Diaz raised his venue objection more than two
months after the pretrial motion deadline, and the district court held that his
explanation for the delay -- that he did not understand venue and waiver as a pro se
litigant -- did not constitute good cause to excuse waiver because the court had
previously explained these concepts to him. See United States v. O'Brien, 926 F.3d 57, 83
(2d Cir. 2019). As a counseled litigant on appeal, Diaz waived any challenge to the
district court's findings on this issue because he failed to address it in his opening brief.
4

9

A9

Case 19-1895, Document 89-1, 07/22/2020, 2889630, Page10 of 10

CONCLUSION
For the foregoing reasons, the district court's judgment is
AFFIRMED.

See Dean v. Univ. at Buffalo Sch. of Med. & Biomedical Scis., 804 F.3d 178, 192 (2d Cir. 2015).
Accordingly, Diaz's improper venue challenge fails.
10

A10

Case 19-1895, Document 104, 10/01/2020, 2943484, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
1st day of October, two thousand twenty.
________________________________________
United States of America,
Appellee,
ORDER
v.

Docket No: 19-1895

Salvador Diaz,
Defendant - Appellant.
_______________________________________
Appellant, Salvador Diaz, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A11

18 U.S.C. § 2250
(a) In general. --Whoever-(1) is required to register under the Sex Offender Registration and Notification
Act;
(2)
(A) is a sex offender as defined for the purposes of the Sex Offender
Registration and Notification Act by reason of a conviction under Federal
law (including the Uniform Code of Military Justice), the law of the District
of Columbia, Indian tribal law, or the law of any territory or possession of
the United States; or
(B) travels in interstate or foreign commerce, or enters or leaves, or resides
‘in, Indian country; and
(3) knowingly fails to register or update a registration as required by the Sex
Offender Registration and Notification Act;
shall be fined under this title or imprisoned not more than 10 years, or both.
(b) Affirmative defense. --In a prosecution for a violation under subsection (a), it
is an affirmative defense that-(1) uncontrollable circumstances prevented the individual from complying;
(2) the individual did not contribute to the creation of such circumstances in
reckless disregard of the requirement to comply; and
(3) the individual complied as soon as such circumstances ceased to exist.
(c) Crime of violence. –
(1) In general. --An individual described in subsection (a) who commits a crime
of violence under Federal law (including the Uniform Code of Military Justice),
the law of the District of Columbia, Indian tribal law, or the law of any territory
or possession of the United States shall be imprisoned for not less than 5 years
and not more than 30 years.

A12

(2) Additional punishment. --The punishment provided in paragraph (1) shall
be in addition and consecutive to the punishment provided for the violation
described in subsection (a).
United States Constitution, Amendment V
“No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual service in time of war or
public danger; nor shall any person be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.” USCS Const. Amend. 5.
United States Constitution, Amendment VI
“In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defence.” USCS Const.
Amend. 6.
United States Constitution, Amendment VIII
“Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.” USCS Const. Amend. 8.

A13

